<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
    AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2019

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION
                                 _______

      SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                  ROBERT B. ADERHOLT, Alabama, Chairman

  KEVIN YODER, Kansas                 SANFORD D. BISHOP, Jr., Georgia
  THOMAS J. ROONEY, Florida           ROSA L. DeLAURO, Connecticut
  DAVID G. VALADAO, California        CHELLIE PINGREE, Maine
  ANDY HARRIS, Maryland               MARK POCAN, Wisconsin
  DAVID YOUNG, Iowa
  STEVEN M. PALAZZO, Mississippi  
  
  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.



                 Tom O'Brien, Pam Miller, Andrew Cooper,
                     Justin Masucci, and Sarah Doese
                            Subcommittee Staff

                                  _____

                                  PART 3

                                                                  Page
  U.S. Department of Agriculture................................     1
                                                                      
  Members' Day..................................................  1463
                                                                   

                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                _______
                                
                                

          Printed for the use of the Committee on Appropriations         
          
          

                   


                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\               NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama               MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                        PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                 JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas               ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                     DAVID E. PRICE, North Carolina
  KEN CALVERT, California                   LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                        SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania             BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                       TIM RYAN, Ohio
  KEVIN YODER, Kansas                       C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                    DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                 CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee         MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington         DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                      MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California              GRACE MENG, New York
  ANDY HARRIS, Maryland                     MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                      KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                    PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus
  
 

                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2019

                              ----------                              

                                         Wednesday, April 18, 2018.

                       DEPARTMENT OF AGRICULTURE

                               WITNESSES

HON. SONNY PERDUE, SECRETARY, DEPARTMENT OF AGRICULTURE
DR. SETH MEYER, CHAIRMAN, WORLD AGRICULTURAL OUTLOOK BOARD, OFFICE OF 
    THE CHIEF ECONOMIST, DEPARTMENT OF AGRICULTURE
MRS. DIEM-LINH JONES, ACTING BUDGET OFFICER, DEPARTMENT OF AGRICULTURE

                    Opening Statement--Mr. Aderholt

    Mr. Aderholt. The hearing will come to order. Good 
afternoon, everyone, and I want to welcome all of you to 
today's hearing. Our primary goal this afternoon is to examine 
the Department of Agriculture's fiscal year 2019 budget while 
also reviewing the use of funds past and present.
    Our primary goal for this hearing is to examine the 
Department of Agriculture's fiscal year 2019 budget while also 
reviewing the use of funds past and present.
    Our witnesses before us today is the Secretary of 
Agriculture, the Honorable Sonny Perdue. Welcome. Good to have 
you here. Also, you are joined by Dr. Seth Meyer of the Office 
of the Chief Economist. Welcome, Dr. Meyer. Good to have you 
here. And Acting Budget Officer Mrs. Diem-Linh Jones. Welcome. 
Good to have you here.
    Before I delve into the budget request, I want to commend 
you, Mr. Secretary, for your leadership during your first year 
in office. Due to the Department's vast responsibility, the 
work of you and your employees at USDA have touched the lives 
of hundreds of millions of people in the United States and 
abroad in many different ways.
    In particular, I want to express my appreciation to you for 
providing assistance to the producers of the cotton ginning 
cost-share program, for reducing regulatory burden on the 
agricultural sector by withdrawing the organic livestock and 
poultry rule as well as the GIPSA interim final rule. Those are 
all very important.
    I also appreciate you providing schools with long-overdue 
flexibility, which is similar to the flexibility the annual 
appropriations process has provided in regard to whole grains, 
syndromes, and flavored milk requirements. I look forward to 
USDA issuing the final rule on school nutrition standards so 
that schools have long-term relief.
    During your first year in office, you have also had to 
assist producers, rural communities, those who are hungry as 
they faced extreme devastation brought by hurricanes, 
wildfires, and other natural disasters. And we appreciate you 
moving quickly to get food to those in need, working with 
States and territories to establish disaster SNAP programs.
    We recognize you and the employees of USDA in implementing 
emergency disaster programs for producers, and assisting rural 
communities in the recovery.
    Lastly, we look forward to the Department's plan on 
implementing the disaster assistance programs Congress provided 
in the last supplemental so that all producers and communities 
can receive financial relief.
    We would also this afternoon recognize your actions and 
efforts toward streamlining certain functions of the 
Department, and engaging with customers and striving to improve 
service and hence engagement. As we learned in the last 
presidential election, many constituents voiced their 
frustration with the Federal Government.
    You are clearly trying to repair and improve the 
relationship between the USDA employees and the customer, from 
the farmer and the rancher to the recipient of a housing loan 
or weak benefits. The change in processes and practices are 
part of the One USDA effort, will probably be uncomfortable to 
some, but sometimes change can be uncomfortable. But I feel 
that you are on the right track. The subcommittee will need to 
be kept abreast of the Department's actions and planned actions 
as it relates to those efforts.
    And turning to your fiscal year 2019 budget request, as you 
are aware, it comes at a time where the rural economy, and 
particularly the agricultural economy, remains under a 
significant amount of stress. Given the concerns of rural 
Americans and upon initial review, there can be several 
elements of the budget that are somewhat difficult to support, 
to be honest.
    While the subcommittee has always supported responsible 
investment, a 16 percent funding reduction from fiscal year 
2017 and other presentations contained within the budget are a 
bit unrealistic, I think, to many of us. The Administration's 
use of a scalpel for several programs and the axe for other 
programs is what I think we find most concerning.
    Popular programs with proven track records receive some of 
the steepest reductions or were right-out eliminated. Similar 
to last year, many in agriculture and rural America are likely 
to find little to celebrate within the budget request.
    Whether items in the budget are true policy positions or 
mere budget gimmicks, I look forward to listening to your 
thoughts and your rationales on some of these reductions, 
especially given the challenges that are facing the farm 
economy and rural America.
    As we conduct our oversight responsibilities and craft the 
agriculture appropriations bill for fiscal year 2019, I want to 
outline what I see as my goals for this subcommittee, and I 
think all the members of this subcommittee would also agree.
    The first goal is to bolster prosperity and economic well-
being in rural America and also in the farm economy. The second 
is to conduct fair and transparent oversight of agency 
activities and public relations. The third is to promote 
economic growth through effective and efficient regulation and 
the minimization of regulatory overreach. And last but not 
least is to protect the health and the safety of people, 
plants, and animals.
    As we move forward, we will use these goals to guide as we 
consider the budget requests that inadequately fund all the 
critical programs. We will find resolutions to effectively meet 
the needs of rural Americans, including but not limited to IT 
infrastructure needed by farmers, effective common-sense 
regulation that does not create barriers to economic 
prosperity, and investments in critical infrastructure.
    Simply put, our objective is to create a spending bill that 
is fiscally responsible, reflecting the needs of the American 
people while protecting the future of American agriculture.
    Part of USDA's budget requests that are concerning include, 
and certainly not limited to, a nearly $300 million reduction 
in research activities. And we will follow up with some 
questions on that. But agricultural research is critical to our 
ability to continue to feed a growing population and also to 
compete internationally.
    Over $3 billion in program-level reductions in rural 
development programs, including the elimination of the Rural 
Business Service, which provides economic support for rural 
communities, and the elimination of the water and waste 
disposal grant program, that provides small communities access 
to clean and safe drinking water is also concerning.
    The budget request also proposes major changes to the SNAP 
program, a discussion better suited probably for the farm bill, 
and a termination of the international food aid programs, 
funded at over $2 billion in fiscal year 2017, including the 
Food for Progress account.
    I am especially concerned about the major changes proposed 
to crop insurance and marketing loan programs, including the 
elimination of cotton marketing certificates, something that I 
and many of my colleagues have worked hard to include in the 
fiscal year 2016 omnibus.
    The budget request includes proposals that would reduce 
crop insurance funding by nearly $30 billion over a 10-year 
period despite continuing decline in net farm income of 56 
percent from its recent high of $123.3 billion in 2013. Farmers 
continue to experience tough economic times and with sharply 
decreasing crop prices and also a number of natural disasters.
    Not only does the budget include sharp reductions for 
several programs, it makes numerous assumptions about staff 
reductions that could be premature. For example, if we reduce 
the size of field staff, we had better make sure that the IT 
systems are accessible and productive and comparable service is 
in place to support our farmers, ranchers, and rural residents.
    If such staffing reductions were to occur, it would 
seemingly make adequate operation, management, and oversight of 
USDA programs challenging without improvements made in delivery 
services. We share the same vision of a smaller government, but 
we need to achieve the goal in somewhat much less drastic 
measures.
    The aforementioned items are just a scratch to the surface 
of the issues that we will probably touch on today in the 
hearings. As a subcommittee, we must analyze the request. We 
have to focus on allocating funds using the goals that I have 
outlined just a minute ago to the most effective, highest 
priority programs.
    But again, we appreciate your service to our country, and 
especially into the ag sector. And thank you for being here 
today.
    And with that, I would like to recognize the distinguished 
ranking member, a fellow Georgian, Mr. Bishop, for any opening 
remarks that he has.

                     Opening Statement--Mr. Bishop

    Mr. Bishop. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    Mr. Chairman, it gives me great pleasure to welcome 
Secretary Perdue before the subcommittee today. Having worked 
with the Secretary in his various capacities, as a State 
senator, as the Governor of Georgia, over the last year as 
Secretary of the Department of Agriculture, I know firsthand of 
his professionalism and his passion for rural America.
    I believe that the cooperative relationship that we 
developed over the years has proven to be a great asset as we 
work together to ensure that our farmers, ranchers, foresters, 
agribusinesses, and consumers have the resources they need to 
prosper in today's competitive and global environment, not to 
mention having the resources to weather the unprecedented 
storms and other disasters our Nation has been through in the 
last year. I have a lot of respect for the Secretary, and I 
know that he is uniquely familiar with the importance of 
supporting farmers, ranchers, producers, and consumers.
    I would like to associate myself with the remarks of the 
chairman, Chairman Aderholt, as he chronicled many of the 
accomplishments of your first year, Mr. Secretary, particularly 
as it relates to cotton, the disaster relief, the tree program 
for our pecan farmers, as well as the goals that he has set 
forth for our subcommittee.
    But before going further, I want to specifically recognize 
USDA's regionalization agreement with South Korea and USDA's 
work to open Argentina's border to U.S. pork. These efforts 
help our farmers while also strengthening our relationship with 
important allies.
    I thank the Secretary for his leadership on these issues, 
and I look forward to working with you, Mr. Secretary, to 
ensure that our farmers and ranchers remain globally 
competitive.
    As many of you have heard me boast about before, Georgia is 
a major agriculture State, with 42,000 farms, 9.6 million acres 
of farm land, of which 2.5 million are in my district. 
Agriculture contributes $71 billion annually to our State and 
our national economy, and Georgia is the number one State for 
the production of poultry, peanuts, pecans, blueberries, and 
privately-owned timberlands.
    My district specifically leads the State in peanuts, 
cotton, pecans, fruits, and vegetables, as well as family-owned 
timberlands. Chairman, I would hope we will see how this 
following season fares for all of us, but I understand Georgia 
is nipping at number one for cotton.
    More importantly, of the 29 counties that I represent, 26 
of those counties are rural, with average populations between 
10,000 to 15,000 people. These counties are some of the most 
economically challenged counties in the State and in the 
Nation, meaning they face severe challenges in healthcare, 
nutrition, rural housing, utilities, broadband, and economic 
development, one of the more pressing issues being a lack of 
grocery stores in my district.
    In fact, we recently learned that 19 grocery stores are 
about to close in Georgia, nine of them in my district. 
Alarmingly, three counties in my district have no grocery store 
at all. I believe we need a new, robust strategy to solve the 
issue of food deserts in America, and I am very supportive of 
the healthy food financing initiative funded partly by this 
subcommittee.
    Agencies under our jurisdiction, especially USDA, are 
uniquely positioned to solve this problem. It is important that 
these agencies are well-funded, and that is why we are here 
today.
    Mr. Secretary, last April the President appointed you chair 
of an interagency task force on agriculture and rural 
prosperity. The purpose of the task force was to identify 
legislative, regulatory, and policy changes to promote 
agriculture, economic development, job growth, infrastructure 
improvements, technical innovation, energy security, and 
quality of life in rural America. In October, you issued your 
first report.
    In response to the President's call to action to promote 
agriculture and rural prosperity in America, the task force 
envisioned a rural America with world-class resources, tools, 
and support to build robust, sustainable communities for 
generations to come, to ensure that you set the right 
priorities. You and members of the task force met with 
stakeholders and held listening sessions to hear directly from 
the communities that comprise rural America. I want to commend 
you for this extraordinary and exhaustive effort.
    In close collaboration with local, State, and Tribal 
leaders, more than 21 Federal agencies, offices, and executive 
departments identified over 100 actions the Federal Government 
should consider undertaking in order to achieve this vision.
    You organized these recommendations around five key 
indicators of rural prosperity: e-connectivity, quality of 
life, rural workforce, technological innovative, and economic 
development. I enjoyed and was very pleased reading the report, 
and I share the great vision you have for a prosperous rural 
America for generations to come. I look forward to working with 
you and the chairman and the subcommittee to ensure these 
recommendations become reality.
    But Mr. Secretary, you said that you support programs to 
fund agriculture research, develop infrastructure in rural 
communities, and to help landowners preserve soil and water 
quality. So do we. And that is why I was severely disappointed 
to see that all of these programs face cuts under the budget 
submitted by OMB for USDA.
    In fact, overall this budget cuts the USDA by 32 percent 
below the fiscal year 2018 omnibus. And I understand that OMB 
is planning a rescission package to reduce that dramatically. 
Many of the cuts that had bipartisan opposition last year are 
repeated again this year--cuts to Water and Wastewater Disposal 
Grants, school meals and equipment grants, Food for Peace, 
McGovern-Dole, and single-family housing direct loans.
    And there are new eliminations this year--for Community 
Facilities Grants, the Commodity Supplemental Food Program, and 
the Watershed and Flood Prevention Program. These and other 
programs are of vital importance to my constituents and to 
people around the country. And I have to be brutally frank and 
honest and say that I am disappointed in the funding levels 
that are being requested.
    Mr. Chairman, Mr. Secretary, I am deeply concerned about 
the impact of these proposed cuts on the Department and on the 
Nation as a whole. We are duty-bound to uphold the laws of this 
country, and that includes promoting the welfare of its people. 
To me, that means we are to feed and clothe our citizens by 
using sound, scientific best practices to ensure a safe and 
abundant supply.
    USDA is the Department to do that. But how can that happen 
with a 12 percent cut in the Agricultural Research Service? How 
can we do that with the proposed budget that zeroes out the 
Watershed and Flood Prevention program account, and Water and 
Wastewater Disposal Grants? And how can we do that with a 10 
percent cut to the critical staff around the country who carry 
out the rural development programs?
    There is also a 21 percent cut proposed in the Animal and 
Plant Health Inspection Service. This is a far larger cut for 
this area than those that have been proposed in previous 
budgets. And again, I am troubled by the proposed zeroing out 
of the Food for Peace and McGovern-Dole programs.
    I feel compelled to mention that there are 15 legislative 
proposals related to the Supplemental Nutrition Assistance 
Program, otherwise known as SNAP or food stamps. One of the 
most egregious is to convert almost half of the funding of the 
EBT payments that SNAP beneficiaries receive to actual food 
boxes or packages, which is estimated to save $129 billion over 
10 years.
    However, it seems not enough thought has been given to how 
these boxes will be delivered, and the severe logistical 
challenges, including security. So I wonder if that number will 
hold up.
    Also, as it is currently conceived, there will be no fresh 
fruit or vegetables in these boxes, and virtually all of my 
colleagues are strongly opposed to this wrongheaded attempt to 
save money. And I have significant concerns over the logistics 
of the program and its ability to cater to individualized 
nutritional and health requirements.
    Furthermore, restricting food choice would take away 
business from local grocery stores, which are already too few 
in number, and further contribute to the prevalence of food 
deserts in rural communities and low-income urban communities 
all across America.
    Mr. Secretary, I believe that you are honestly trying to 
bring positive changes to USDA. We are always looking for ways 
to do things more efficiently. My concern is that the 
Administration has not asked for appropriate resources and 
staffing. I want to ensure that the resources this subcommittee 
provides are used correctly and efficiently, and that the USDA 
has the necessary resources to successfully carry out its 
mission.
    There are limits, however, to doing more with less. And it 
appears that in the Administration's haste to make good on one 
promise, they have now told the American public that they 
expect less with less. OMB is still trying to squeeze blood 
from a turnip, as I said last year, and it is still not 
working.
    You said that you will make rural America a priority, and I 
believe that you want to do that. However, we both know that 
this budget does the exact opposite of fulfilling that promise. 
I pledge to do my best to work with you, Chairman Aderholt, and 
our subcommittee to see that that promise is fulfilled.
    I guess you can see we have a lot to discuss. But I thank 
you, Mr. Chairman, for the opportunity to welcome the Secretary 
with some brief concerns. I yield back.
    Mr. Aderholt. Thank you.
    We are privileged to have the full committee chairman today 
with us, Mr. Frelinghuysen. I would like to recognize him.

                  Opening Statement--Mr. Frelinghuysen

    The Chairman. Thank you, Mr. Chairman. And thank you for 
your strong leadership of this subcommittee, ably assisted by 
your ranking member, Mr. Sanford Bishop of the great State of 
Georgia.
    I also want to welcome Secretary Perdue to the 
Appropriations Committee again, and we look forward to your 
testimony and hearing your frank and candid views. And we 
always appreciate your stopping by my office. There are a few 
secretaries that have yet to find my office, but I know that 
you were one who did, and you are a class act.
    And furthermore, I suspect maybe your second or third visit 
had to do with the bowl of M&Ms we have in our office, which is 
what we call a good New Jersey product. Thank you very much.
    As I say, Mr. Secretary, at every meeting, the power of the 
purse lies in this building, and it is the constitutional duty 
of Congress to make spending decisions on behalf of the people 
we represent at home. And it is my pleasure to work very 
closely with Ms. Lowey. We did on the recent omni.
    I think we did some good things for cotton farmers. I 
learned more about cotton in the last 12 months than I ever 
knew about cotton. Seventeen States, I think grow it. But I 
want to thank Chairman Aderholt and the cotton world for 
educating me in how important it was that we include some good 
language and direction in our recently-passed omni.
    Conservation and farm programs administered by your 
Department are instrumental in promoting agricultural 
production around the country, including in New Jersey, what we 
call suburban America. We are known as the Garden State. We are 
homes to many farms and farmer's markets.
    And may I say that Haddonfield, New Jersey, is known as the 
Blueberry Capital of the World. I am not sure what they are 
doing down in Georgia, but we claim the capital. We also 
obviously claim cranberries as well and tomatoes because it 
used to be--it still is--home to many of those things that goes 
into Campbell's Soup.
    The last couple things I would say is that the focus is on 
trade, focus on what is going on with steel and aluminum. I am 
not a great believer in trade wars, and I am concerned, as a 
citizen, that many of the people who--I come from the school no 
farmers, no food. A lot of the things that we are reading in 
the newspaper here are going to disadvantage a lot of our 
agricultural basis.
    As a citizen, I am concerned about the future of a lot of 
different markets. I may not have a lot of expertise, but I am 
sympathetic to some of the trials and tribulations that many of 
these good people face each and every day when they walk out of 
their house and till the fields and look after their crops.
    And the last thing I would like to do, Mr. Chairman, is put 
a plug in for the great work of Dr. Richard Olsen at the 
National Arboretum outside the city here. Sometimes they mix up 
the Arboretum with the Botanic Garden, which is right at the 
foot of Capitol Hill.
    Dr. Olsen and his crew, aided by Friends of the National 
Arboretum, and I know you are familiar with the good 400 acres 
down there outside on the Anacostia side, they do some 
remarkably great things. I am here to boost their spirits and 
hope that you will always hold them close to your heart.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Aderholt. We are also privileged to have the ranking 
member for the full committee, Mrs. Lowey. Glad to have you 
here today. If you would like to make some opening remarks.

                     Opening Statement--Mrs. Lowey

    Mrs. Lowey. Thank you very much. And I want to thank you, 
Chairman Aderholt and ranking member Bishop, for holding this 
hearing. And it is always a pleasure for me to be here with 
Chairman Frelinghuysen. We have put our roller skates on, and 
we are managing to travel from hearing to hearing. But this is 
a very important hearing, and Mr. Secretary, it is a pleasure 
for me to welcome you today.
    Last year I expressed my frustration that your budget would 
leave more Americans hungry and increase hunger and insecurity 
around the world. Frankly, this year's budget is worse. It 
doubles down on harmful cuts and, frankly, adds condescending 
proposals that disrespect American citizens.
    While I was very pleased that summer EBT and other school 
meal programs were requested, your budget would cut the USDA 
budget by 32 percent; threaten the ability of some poor rural 
communities to access clean drinking water; jeopardize SNAP 
benefits for 46 million Americans; reduce nutritional foods for 
women, infants, and children; eliminate Food for Peace and 
McGovern-Dole, which feeds vulnerable children across the 
globe. But that is not all.
    Perhaps most surprising is this bit of hypocrisy my 
Republican friends repeatedly say--that bureaucrats in 
Washington should not be making decisions for families, that 
families should be making these decisions for themselves. So 
you can imagine my surprise with the Administration's proposal 
to replace about half of SNAP benefits with box of 
nonperishable food.
    I would not want to have to depend upon a box of 
nonperishable for feeding my family. To me, it was so 
condescending, a take it or leave it approach, without regard 
to the nutritional needs and preferences of American families.
    Let's get a few things clear about SNAP. Recipients are 
less hungry, are less likely to take sick days, even spend less 
on healthcare compared to others, and studies have even shown 
that children who receive SNAP are more likely to graduate from 
high school and be self-sufficient adults.
    SNAP benefits work out to about $4.20 a day. Now, I am not 
going to poll my friends on both sides of the aisle, but $4.20 
a day? Mr. Secretary, I wonder if you and your family ever 
spent a week trying to live on $4.20 a day.
    So I think it is important that we are honest with each 
other about this proposal. It is just a mean way to hit 
Americans who need a hand up, not a handout. And you know, I 
believe this from the bottom of my heart. In New York years ago 
I worked on several of the anti-poverty programs. And people 
really do want a hand up, not a handout.
    So Secretary Perdue, as I mentioned last year, I find it 
hard to believe that you will tout this budget to the men and 
women you used to represent in Georgia. I am sure you are not 
traveling around the District and talking about this budget.
    So I look forward to your testimony. I know you really care 
about these issues. You have a distinguished career. And I hope 
that we can get together in a bipartisan way with the good men 
and women of this subcommittee and improve this budget. Thank 
you so much for being here. We appreciate hearing from you.
    Mr. Aderholt. Thank you, Mrs. Lowey.
    Secretary Perdue, without objection, your entire written 
testimony will be included in the record. And at this time, I 
would like to recognize you for any comments you would like to 
make, and then we will proceed with questions.

                  Opening Statement--Secretary Perdue

    Secretary Perdue. Well, thank you, Mr. Chairman and ranking 
member Bishop and Mr. Chairman and ranking member Mrs. Lowey, 
for the opportunity to be with you today.
    First of all, I want to thank you all for the compliments 
that you have talked about with our passion and our concern and 
our desire to do well for the American people as well as 
American agriculture. You were very kind in those remarks, and 
also very articulate in some of your concerns regarding the 
budget, frankly, some of which I share. And we will have a 
conversation about them today and talking about that.
    Mrs. Lowey, I particularly look forward to explaining our 
plans regarding the Harvest Box idea, some of which received 
rather negative press, and the fact that we were not able to 
explain that ahead of time with the timing there. But I look 
forward to describing those things as our vision for how we can 
do a nutritious program in that regard. But thank you for your 
concerns.
    I am going to be relatively brief because I think most of 
the time should be reserved for your members, Mr. Chairman, to 
inquire and to ask questions with their comments. And we will 
be happy to respond to all those.
    Almost 10 days short of a year in office, we have visited 
35 States and your constituents. And we hope to get to all of 
them. Have not been to the Garden State yet, Mr. Chairman, but 
we hope to get there. We will be there soon. But we understand 
the number of farms are growing. The farm-to-table is very 
aggressive there.
    I would be remiss if I did not thank this subcommittee for 
the supplemental disaster program, which will help our ag 
constituents and producers primarily recover from the 
devastating hurricanes that Mr. Rooney's district and others 
underwent this last year in many severe ways.
    We are working diligently over designing a program 
hopefully that will be announced, I am hoping, next week. We 
have pressed our people and our team repeatedly over the weeks. 
I have told them that many times I have seen disaster programs 
in the past; by the time the producers receive the money, they 
have forgotten what the disaster was about. So we are hoping to 
move out very quickly in that area, and I will be happy to 
answer any questions specifically about that.
    I also want to thank you all for the omnibus which, again, 
backfilled many of those deficiencies you all enumerated last 
year. And we are going to commit to you to use that money 
wisely. It gives us some certainty regarding staffing. We are 
undergoing strategic staffing efforts in every mission area, 
all eight missions there. So we will have some better 
information for you with certainty and budgeting in that regard 
over our plans for serving your constituents in each and every 
State.
    So I want to thank you for the opportunity to appear with 
you today here. You mentioned broadband and a lot of other 
concerns. And certainly, Mr. Chairman, you mentioned the 
anxiety that is currently in the whole ag community regarding 
trade disputes and things like that.
    Agricultural producers know that they are always the tip of 
the spear because they are more successful and productive in 
their work than most anyone. When it comes to a trade dispute, 
they are there, the tip of the spear. I am thankful that 
President Bush [sic] has indicated that he does not plan for 
our agricultural producers to be the only casualties or the 
casualties in this war, and we will have to plan on how to do 
that.
    Once again, my thanks, Mr. Chairman and this subcommittee, 
over giving us the flexibility. We may need to use all the 
authorities residing in the USDA budget to help out if it comes 
to that. We are hopeful that the negotiations will be 
successful, and we are hoping that that will be productive.
    You mentioned Argentina. You mentioned Korea. And we have 
some successes over this last year, but there are more to come. 
And we are hopeful that we can see the success there; and these 
trade disputes and the saber rattling be just that, get to the 
negotiating table and stop the unfair trade practices we have 
seen, particularly from China and many areas that we can again 
utilize as a huge market for our agricultural producers.
    So with those comments, I want to thank you again for the 
opportunity, and I look forward to addressing any of the 
comments, questions, that you may have in, I think someone 
said, a frank, transparent, and honest way.
    [The prepared statement of Secretary Perdue follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Mr. Aderholt. Thank you, Mr. Secretary. And just for the 
record I think you meant President Trump instead of President 
Bush.
    Secretary Perdue. Did I say President Bush? Well, I guess 
Barbara Bush is on my mind, so----
    Mr. Aderholt. Well, we all are. And thank you for 
mentioning that because our hearts are certainly saddened about 
the loss of a former First Lady and mother of the President 
George Bush. So our hearts go out there. So that is a very good 
point.
    Secretary Perdue. If we could strike that from the record, 
I would appreciate that. [Laughter.]

                BROADBAND LOANS AND GRANTS PILOT PROGRAM

    Mr. Aderholt. Let me begin and just touch base about the 
Harvest Box issue. We have got a lot of topics to cover this 
afternoon, but I do want to acknowledge that issue proposed by 
the USDA's budget request. Some groups, some Members of 
Congress, as you have seen, and media have had a negative 
reaction to that proposal.
    But I do want to give you credit for thinking outside the 
box, no pun intended--well, maybe it was intended. [Laughter.]
    But regardless, it is a good way to think, thinking outside 
the box, literally, in how we can try to deal with hunger 
issues. I am certain that some of my colleagues want to discuss 
this in much detail today, but in reality, this subcommittee is 
probably not the best place to make such a sweeping priority 
change.
    This proposal is probably left better to the farm bill 
discussion, which I understand is currently going on as we 
speak. But I hope we can remain focused on the programs that 
will be part of the fiscal year 2019 process.
    Let me turn now to--you referred to the comment that was 
made about broadband. You testified last week that USDA is 
actually working with the FCC and Commerce to ensure that the 
loans and grants that your Department makes for rural broadband 
are strategically deployed to the areas of greatest need 
instead of duplicating existing networks.
    This will become all the more important as USDA works to 
implement the $600 million, that rural broadband loan grant 
pilot program recently enacted in the omnibus spending bill. 
Your efforts to efficiently deploy government resources are 
greatly welcomed.
    My question to you this afternoon would be: What can 
Congress do to help ensure that this level of coordination is 
sustainable, and that the Federal programs will be working with 
each other to complement rather than to conflict with one 
another?
    Secretary Perdue. Well, thank you for the opportunity to 
address this, Mr. Chairman. And I think, again, it is vitally 
important. I passionately believe this is a potentially 
transformative item, just as we have seen in the Rural 
Electrification Administration--REA--in the 1930s, the 
telephone bill in 1934, and the interstate highway system.
    We know that to prosper today and to have rural prosperity, 
you have got to have connectivity, whether it is telemedicine, 
distance learning, e-commerce, precision agriculture, or just 
the sociological impact of having young families and young 
children feeling connected to the world out there through apps 
and Fortnite or whatever it is out there to be involved with.
    So we want to demonstrate to this subcommittee and to 
Congress and to the Administration that the $600 million that 
you have allowed us to deploy as pilots to effectively target 
underserved areas, not solely by ourselves--we are calling. We 
just had a meeting today in the Whitten Building over calling 
together the Rural Electrification Co-ops, the Rural Telephone, 
Rural Broadband Association, the Farm Foundation both. The 
financing through the ag credit system and others, of how we 
can all partner. There is not a one-size-fits-all for this 
solution.
    But I am very proud of the person that we have at the helm 
of the Rural Utilities Service. Ken Johnson led a rural co-op 
in Missouri to serve their 3,000 customers with high-speed 
broadband without Federal support. And he did it through a 
business model of going out and getting subscribers to go to 
the market and demonstrate a sustainable business model to do 
that.
    We want to find those kinds of ideas, those practices, 
using this $600 million as kind of a bait to get people to come 
to the table with great applications of how to do this across 
the country in underserved areas. Our intention is not to 
overbuild and to duplicate services, and that is really the 
fear oftentimes.
    The Federal Government really uses a lot of money through 
FCC, Commerce Department, USDA, in this area. But we have never 
had a holistic strategic plan, and that is what we are trying 
to lead the effort, to have a strategic plan across America to 
really connect America, not just rural areas but the urban, 
suburban, and rural areas need to be connected to one another. 
And the potential, we believe, for innovation, creativity, in 
the agricultural space, in the rural space, is tremendous when 
they can have access and on-ramps to that digital highway of 
the 21st century.
    Mr. Aderholt. I know my time is up, but I do want to 
mention that, for the record, any information you could give us 
as far as an overview of where the Department stands on 
developing rules and plans for a program rollout, and 
implementation of the $600 million for a pilot program to 
expand rural broadband, would be helpful. But you can certainly 
get back with us on that.
    [The information follows:]

    There are numerous tasks that need to be accomplished, and 
that are currently in process, to effectively and responsibly 
create a successful program of this size and importance. This 
includes administrative efforts to contract for operational and 
technical assistance services, setting up a reliable and safe 
online Rural Utilities Service application and review system, 
determining eligibility factors, and establishing a subsidy 
rate, all in compliance with Federal legal and regulatory 
requirements for such processes. We also will publish a Notice 
of Inquiry and establish a web portal to receive public input 
and ultimately a Notice of Funds Availability. We should be 
able to provide a realistic timeframe once some of the more 
complex tasks for program establishment have moved forward. 
Please be assured that USDA Rural Development is diligently 
working on all these aspects, in a prudent and expeditious 
manner, as USDA understands the urgent need for the economic, 
educational, and health benefits that broadband can bring to 
our farmers, ranchers, and rural communities.

    Mr. Bishop.

                             OPIOD EPIDEMIC

    Mr. Bishop. Thank you very much, Mr. Chairman.
    I want to zero in on a very, very strong national epidemic, 
and that is regarding opioids. Rural Development recently began 
holding a series of regional roundtables on the opioid crisis. 
There was one last week in Utah.
    I applaud this effort. In 2016, nearly 64,000 Americans 
died from drug overdoses, and shockingly, a December 2017 
survey by the National Farmers Union and the American Farm 
Bureau Federation found that as many as 74 percent of farmers 
have been directly impacted by the opioid crisis.
    As you know, rural communities have scarce resources to 
combat substance abuse. A USDA website on opioid misuse in 
rural America lists three specific programs that can assist 
rural communities to combat the opioid epidemic--the Community 
Facilities Loan and Grant Program, the Distance Learning and 
Telemedicine Program, and the Rural Health and Safety Education 
Program.
    I am curious, then, why the OMB USDA budget request zeroes 
out the Rural Health and Safety Education competitive grants 
program and decreases Distance Learning and Telemedicine 
Program funding. To me, it seems like this is not the time to 
cut that, but to increase these resources.
    I know it is early, but is there anything new that you and 
the Assistant to the Secretary for Rural Development have 
learned from the roundtables? And will Rural Development be 
issuing a report on the findings and recommendations and next 
steps?
    Secretary Perdue. Thank you, ranking member Bishop. We will 
indeed. Anne Hazlett has, after every listening session, 
reported back about the things she's heard. And just like 
broadband, there is no one solution. As you well know, there is 
a lot of despair.
    This is the one drug epidemic that probably affects rural 
areas as much if not more than other areas. Farming is not a 
safe business, and you see a lot of people become addicted 
based on prescription medication and other types of things.
    I think there is a $20 million appropriation for the opioid 
specifically there, how we can help in partnering again in a 
holistic way with HHS, who has the primary responsibility over 
the epidemic there, but with community facilities and creating 
treatment centers out in rural areas where there may not be an 
economic model that makes sense there, partnering again with 
local communities, with community facilities of remote type of 
treatment, and again telemedicine, using that in a way that 
could hopefully be productive in these citizens' lives.
    Frankly, honestly, profitability in the farm sector would 
go a long way toward curing some of the despair out there that 
causes people to misuse opioids.

                          CHINA TRADE DISPUTE

    Mr. Bishop. Thank you, Mr. Secretary. You mentioned trade 
in your opening statement, and I am glad you did because 
obviously, this is becoming a top priority with wide-reaching 
implications, especially for our farmers. According to the 
Georgia Department of Economic Development, China is the 
largest--I am sorry, it is Georgia's third largest export 
market. Soybeans, cotton, pecans, peanuts, and blueberries are 
just some of the products that will be adversely affected in a 
trade war with China.
    We have made a great deal of progress, and I don't want to 
go backwards. Just over three years ago, the import tariff on 
unshelled and shelled pecans was 24 percent. At the end of last 
year, it was just 7 percent. We worked real hard to try to get 
that reduced.
    I am hearing from many of my constituents about their fears 
of a trade war. Can you talk about where you see all of this 
going and what assurances we can give to our farmers, a little 
bit about the other options that USDA has to respond quickly to 
protect our U.S. farmers and ranchers? How do you assure that 
every farmer is given a fair share? And I understand the CCC is 
one of the options under consideration.
    Secretary Perdue. Obviously, if we have to have mitigation 
efforts, what you all gave us with flexibility on the CCC would 
be one of the authorities that we would look to, as well as 
Section 32, overproduction or taking food into the schools and 
other food banks and things like that.
    But you are absolutely right. You have seen firsthand in 
your fertile district, probably the most fertile agricultural 
district in Georgia, over the growth of the pecan industry from 
a price perspective and an acreage perspective. And much of 
that growth has been driven by the demand in China.
    Once they became acquainted with pecans, they wanted more 
of them. And frankly, that is the same situation with much of 
U.S. products, and that is sadly why President Trump has called 
on China and called them out for their unfair trade practices, 
because we allow many of their products to come in virtually 
tariff-free and yet they still restrict or tariff many of our 
products in there, both peanuts in your district, pecans, as 
well as cotton and other things.
    And frankly, we are exhorting the President to use his 
negotiating power. If we think everybody has gotten the 
attention now, let's go to the table and design the things that 
we think are unfair. I have talked to the President about a 
reciprocal tariff arrangement, and he has picked up on that. If 
they tariff us a certain percent, then let's just be fair back 
and forth about that and do that. But there is a lot of anxiety 
in agriculture.
    The other thing that would help, and I am more optimistic 
than I have been about that, is resolving the NAFTA situation. 
Ambassador Lighthizer has been working hard on that, and I am 
hoping we can get that. You know that the President's 
negotiating style on aluminum and steel got South Korea's 
attention, and we were able to resolve many of the issues that 
way.
    I am hoping the same effect in NAFTA because China, Mexico, 
and Canada are typically, in all of our States, one, two, and 
three export destinations that way. So NAFTA's important here. 
That would relieve the anxiety level quite a bit. And then if 
we can get to the table with China, then we can utilize that. 
Sorry for the long answer.
    Mr. Aderholt. Chairman Frelinghuysen.

                       U.S. TRADE REPRESENTATIVE

    Mr. Frelinghuysen. Briefly, there is a lot of money for 
opioids spread across every department, billions of dollars. It 
is a huge issue. It affects suburbia as well as rural America. 
I hope the powers that be, and you are one of those at the 
table, have worked out some sort of a system to make sure we 
are not duplicating efforts. I am not sure you can give me that 
assurance, but as long as you are at the table, I hope that you 
will work very closely with Health and Human Services and all 
these other agencies.
    And on broadband, it was one of those things that sort of 
came up, quite honestly. It is an issue that needs to be 
addressed. And we hope and know you will spend that money 
wisely.
    And lastly, do you have a relationship with the USTR, with 
the ambassador? Much of what members find, we found out, in 
terms of the announcement of the trade war on aluminum and 
steel, was what we read in the newspapers. What is your 
relationship with the USTR?
    Secretary Perdue. Ambassador Lighthizer and I speak pretty 
much on a weekly or more frequent basis because many of the 
technical issues of advice and counsel we have to give them. 
The USDA, we consider ourselves the chief salesperson for ag 
products worldwide. There are the legal ramifications of 
designing exactly what those contracts are going to look like.
    So unfortunately, I think the steel and the aluminum 
circumvented normal channels in that announcement. We were 
surprised by that as well. That pretty much came from the White 
House, and that announcement, that was not something we were 
clued in on that way.
    But otherwise, with the EU and others, negotiations on 
Argentina and others, we work very closely. Our Foreign 
Agricultural Service works very closely with USTR on a daily 
basis. Ambassador Lighthizer and I are talking on a weekly or 
more frequent basis.
    Mr. Frelinghuysen. Yes. Over the years, I have been--
regardless of the administration, the USTR reps have been 
pretty remarkable. Their knowledge across pharmaceuticals and 
ag products--I think we have been blessed with some pretty 
smart people. So you are well built into that equation.
    Secretary Perdue. Yes, sir. We feel certain that we are.
    Mr. Frelinghuysen. OK. Thank you, Mr. Chairman.
    Secretary Perdue. And your point about opioid and rural 
broadband is exactly--both of us share. We just do not want a 
scattergun approach. We are trying to target the limited 
resources we have to the most potential.
    Mr. Frelinghuysen. I will just say for the record that 
there is a lot of money going out the door. And I have said 
this to the military as well. Somebody is responsible for 
spending it wisely. We may not get this amount. We had, for a 
brief time, predictability and stability. But this amount of 
money may never come your way again, so I hope we spent it 
wisely.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Ranking member Lowey.

                         MCGOVERN-DOLE PROGRAM

    Mrs. Lowey. That is a good beginning. I agree with you, Mr. 
Chairman. I hope we spend it wisely as well, and I think the 
oversight on a whole range of issues is absolutely essential.
    However, Mr. Secretary, I want to talk to you about the 
McGovern-Dole Food Program that provides food to schools in 
low-income countries, committed to universal education, easing 
the economic burden on parents, and encouraging children, 
especially girls, to stay in school.
    Because of McGovern-Dole, the World Food Program estimates 
enrollment of girls in school in Pakistan has increased 135 
percent. In sub-Saharan Africa, school meals have led to a 28 
percent increase in enrollment of girls and a 22 percent 
increase for boys. These really are amazing results, not only 
for the children involved but for what they do to strengthen 
societies against the threat of terrorism and civil disorder, 
benefitting children abroad and the national security of the 
United States.
    Those efforts would end with your budget. Before proposing 
elimination of McGovern-Dole, did the Department consider what 
costs could increase as a result of the cut, including the cost 
of global hunger, instability, and military considerations? Was 
this taken into consideration?
    Secretary Perdue. Ms. Lowey, I think you well understand 
how this process works, and we have passbacks with OMB. I have 
had great discussions with Governor Beasley and the World Food 
Program about just the very statistics you have talked about. 
We were in Rome at the G7 agricultural ministerial just last 
year. He showed me pictures and statistics about the impact 
that had made in that regard.
    You have heard from Secretary Mattis regarding if we do 
away with food, then we need more bullets. So we don't disagree 
with that at all. And the very fact that these are programs 
that Congress has valued in the past, I think the 
Administration's idea that these were possibly duplicative, I 
think the real issue that I would want to emphasize today is 
that we would ask that if money is restored for this that it be 
in the form of allowing American commodities grown by American 
farmers rather than cash to be disbursed.
    We think that is a 2-for win in that regard to help not 
only our American producers but those people who--in our areas 
that need the food.

                  COMMODITY SUPPLEMENTAL FOOD PROGRAM

    Mrs. Lowey. Well, let me just say I appreciate your 
thoughtful answer, and I do hope we can have a dialogue between 
you and my good colleagues on the other side of the aisle. And 
I am sure we could work out a constructive solution to the 
problem. I appreciate your answers.
    On another issue, a study showed that seniors struggling 
with hunger are at increased risk of poor health and chronic 
conditions, including diabetes and heart disease. As proper 
nutrition is directly linked to improving health outcomes and 
specifically for seniors, preventing unnecessary trips to the 
hospitals, delaying or eliminating the need for nursing home 
care, improved nutrition, would ease suffering and reduce the 
burden on Medicare and Medicaid.
    Given these facts, why on earth would this Administration 
propose eliminating the Commodity Supplemental Food Program, 
which distributes meals to the elderly? Has the Department done 
an analysis to see what the impacts of this elimination would 
be on food-insecure seniors?
    Secretary Perdue. Ms. Lowey, I had the pleasure of going to 
the Pennsylvania Food Bank there and watching the distribution 
and having the testimony of senior citizens there who were the 
recipients of these boxes.
    Honestly, I know that I would love the opportunity to talk 
to you personally and privately in your office about the 
Harvest Box concept because that was the progenitor, actually, 
of how we could use nutritious foods, including fruits and 
vegetables, in the boxes there because we saw how beneficial it 
was to the others.
    I do regret, frankly, that the budget does not include 
that, and I hope that you all do view it well and would be a 
part of the ongoing supplemental while our senior citizens 
are--also have access to the supplemental nutrition program. 
This supplement--I was moved by the testimony of the users of 
this program.
    Mrs. Lowey. Mr. Secretary--and I just want to say to the 
Chairman, I see my time is up. I am really very impressed with 
your honest, straightforward testimony. And based on your 
responses, and working with my colleagues on both sides of the 
aisle, I do hope that we can modify the request from the 
Administration because it sounds to me, from your response, 
that we could agree a lot more than disagree.
    So I welcome you to my office. I look forward to working 
with my colleagues, and I know we will make some constructive 
modifications to this budget.
    Thank you very much.
    Mr. Aderholt. Mr. Rooney.

              DISASTER ASSISTANCE FOR THE CITRUS INDUSTRY

    Mr. Rooney. Thank you, Mr. Chairman.
    Mr. Secretary, last year Acting Under Secretary Johansson 
came before our subcommittee here after Hurricane Irma hit, and 
we had a good dialogue about the USDA's disaster programs and 
crop insurance policies, and he at that time, as you know, 
acknowledged that those policies wouldn't be able to help in a 
meaningful way our citrus industry after Hurricane Irma.
    So that is why, as a result, we provided you with $2.3 
billion to help compensate our farmers and growers who suffered 
hurricane crop losses. And I know that you and your entire 
staff at the USDA have been working on a daily basis to come up 
with a program that works. It was good to hear that you said 
that you hope to roll that out next week, because that is 
really truly what is going to help save our industry.
    And I know that you share my growers' sense of urgency, 
that you want to get this aid out as soon as possible. I 
appreciate you coming down to my district and flying over the 
groves and meeting with our growers. It really meant a lot.
    As you know, the citrus industry generates roughly 45,000 
jobs in rural communities like Wauchula, Sebring, Avon Park, 
and Lake Placid, which is why it is so important that we not 
only get the aid out quickly, but that the program is right.
    I appreciate your close collaboration with our Agriculture 
Commissioner, Adam Putnam, whose team is here today, and our 
state's industry leaders who are also here today.
    I apologize for sniffling, as I am a little under the 
weather. That is why I am drinking my Vitamin C orange juice.
    I am encouraged to hear that you are considering a 
combination of options to make the program work for Florida 
citrus. And with that, I hope you can answer a few questions 
that I have. And I will just ask them all at once and let you 
take the rest of the time.
    Can you explain to our folks back home--and we will put 
this email out, send it directly to them, so you would be 
talking directly to my growers--the work that has gone into 
setting up the program that we hope to release next week, and 
how you will ultimately define its success.
    Secondly, to the extent that you are able to at this time, 
can you explain how growers should expect to go about applying 
for the assistance once it is announced? And then, finally, 
when can they realistically see relief?
    Thank you, Mr. Secretary. I appreciate your help.
    Secretary Perdue. Well, thank you, Mr. Rooney. And if I 
don't answer all of these--I try to write them down--please 
help me again with the questions.
    But you are absolutely right. We have been working on this 
on a daily basis, and I think you are probably aware of many of 
the conversations with Commissioner Putnam and your governor 
and your members of Congress about the citrus issue. It is 
unique in a way, unlike many of the commodities across the 
country, in that it is fairly concentrated. And that has given 
us some particular challenges in that some of the size of some 
of the producers, we want to be responsible stewards of the 
taxpayer money.
    But also, the industry is at risk. Certainly, as you well 
know representing that district, from the terrible time with 
citrus greening over the years, had debilitated the industry. 
We have seen the numbers over the loss of production there, and 
then you add the multiple hurricanes this year. So we are 
trying to design a program that takes care of the fruit loss.
    And potentially through a--to individual producers, based 
on their loss, what--some of the principles that we have talked 
about is if these are organic citrus producers, possibly multi-
generational, we don't want to punish the successful ones 
because they have been successful.
    And if 75 percent of their AGI comes from farm production, 
we are not going to hold them to the typical FSA-type AGI 
limits or the payment limitations, if that hurricane loss, that 
disaster loss, had resulted from the hurricane.
    Secondly, to preserve the industry as a whole, we are 
looking forward to a program that deals with the tree loss, 
therefore, that the state can administer in a way on a per-acre 
basis, you know, going forward.
    Thirdly, this would be done in sort of a retroactive 
insurance program that we would consider either in the years 
going forward requiring the producers that took advantage of 
the disaster program to have an insurance program going 
forward.
    As you know, it had been 10 years or so since major 
hurricanes--I guess 2004 maybe since a major hurricane, so many 
people, because the citrus actuarial was not as good as it 
possibly could have been, many people didn't have the upper 
limit, catastrophic coverage possibly, but some didn't have it 
at all. And we hope to train them to use the crop insurance 
program, not to depend on supplemental disaster programs going 
forward.
    I will be happy to answer any other questions.
    To timing, we want to do a 50 percent advance payment as 
soon as we can. We hope to have the announcement--hope to have 
all of the IT work and the software work for signup in late 
June/early July in order to get that done with the money going 
out as quickly as we can get people signed up.
    Mr. Rooney. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Ms. Pingree.

                            ORGANIC INDUSTRY

    Ms. Pingree. Thank you, Mr. Chair.
    Thank you, Mr. Secretary, for being here today, and I am 
pleased to hear some of the comments earlier that came from our 
colleague from Georgia about the time that you two worked 
together there. And I know having a background as a governor 
from an agricultural state has been really helpful to you in 
moving into this position.
    And I share with--many of the good things that you have 
been doing in the Department, and I am particularly pleased to 
hear about your RV tour. I know you have missed Maine, and you 
are going to want to stop in and get our blueberry pie, since 
it is different from Georgia.
    But anyway, I think that it is really a good way to sort of 
see what is going on there, and you and I have had some good 
conversations. You welcomed me to your office, and I just 
really appreciate your spirit of cooperation.
    But I know I share a lot of the concerns that you have 
already heard on this subcommittee, really, from both sides of 
the aisle about the particular budget. I want to add a few 
things about that and hear your thoughts and see if we can find 
some ways to work together.
    I also wanted to mention that I was troubled a little bit 
about your support for the farm bill. Interesting today that it 
is being marked up in the House, and there is obviously a lot 
of disagreement around that. I was looking at your quote that 
said the Trump Administration has made rural prosperity a 
priority for the country, and the farm bill that works for 
agriculture is a key component of that agenda.
    And one of the problems with the farm bill I think is it 
mirrors many of the things that are--we are dealing with here 
in this subcommittee around the budget cuts. The farm bill 
provides zero mandatory funding for rural development programs, 
which just seems counterproductive to me. If we want to really 
prioritize rural prosperity--and we have been talking about 
that in so many ways today through broadband, support programs, 
nutrition, you know, lack of access to healthy grocery stores--
there is just so many issues that rural states like mine are 
really facing.
    And I think one of the challenges in what is going on in 
the farm bill with a lot of the mandatory funding zeroed out, 
like rural development, then it means the appropriators on our 
subcommittee, we have to try to find all these orphan programs, 
things like REAP, which have been really beneficial in my state 
to help lower energy costs.
    I am also concerned about the cuts and eliminations that we 
have, you know, before us today. So I am kind of looking at it 
from both sides and hoping that we can find a way to come 
together, although I will be really discouraged if, after the 
good work was done in the fiscal year 2018, there are any 
rescissions proposed by this Administration.
    So I thought I would focus on one area in particular around 
organics. And I know you know that is one of my interests, and 
I have really been pleased to hear your interest in and 
understanding of the importance of this in so many states, the 
idea that it is attracting many of the millennials.
    And I have heard you say that word many times, and I am 
always impressed when I hear you say it, but recognizing that 
we need younger, creative farmers getting in. But I think it is 
a really critically important role that the USDA is there to 
support organics, given the fact that it is a $50 billion 
industry today, and it provides a lot of the opportunities that 
farmers have found to find markets in what have been very 
troubling and perhaps continuing troubling times, whether it is 
around trade or commodity prices.
    So let me try to be quick because I want to give you at 
least a second to answer my question. I was really discouraged 
to see that USDA withdrew the organic livestock and poultry 
practices rule. I think that is--I just think that was a bad 
decision. I guess the Chair and I don't necessarily agree on 
that. But we have to keep consumers confident in what goes into 
the organic brand.
    The farm bill proposes not reauthorizing the Organic 
Certification Cost Share Program. That has been really critical 
in my state and is one of the most helpful programs in getting 
new farmers started out in the organic industry. The NOP 
received $12 million in the Omnibus, and that is good, although 
I am pushing for $15 million in the NOP.
    I am just very concerned about whether there are resources 
there, and honestly, the level of support to make sure that we 
have the resources to tackle issues around fraudulent imports, 
maintain the integrity of the organic label. And I will stop 
there because I just think that is a really important focus.
    Secretary Perdue. Well, it is an important focus and one 
that we are putting real emphasis on. As you know, there have 
been some import cheaters coming into this country, and that is 
the responsibility of the USDA on equivalency. The organic 
industry, frankly, needs to be complimented over listening to 
the consumer and producing a product that consumers have 
demonstrated they are in desire of.
    So they have kind of pulled themselves up by the bootstraps 
here and been successful. That is one of the reasons over the 
rules that you mention that we didn't want to move those 
goalposts at this point, but to allow the industry to continue 
to mature in that arena on organic livestock and production 
there.
    We know that people have built their business model there, 
but organic integrity is very important and one of the ways we 
mention when we visited about the number of farms increasing 
from younger people that want to have that spiritual side of 
dirt in their hands and a farm-to-table type of movement that 
is alive and active out there.
    I think we will continue to see that grow, and we want to 
support those young farmers and the farm markets and other 
things that didn't get quite to Maine, but we are going to get 
there, and not only blueberries, we are looking for some of 
that Maine lobster. [Laughter.]
    Ms. Pingree. Can't miss that on a trip. I did bring you a 
little Maine organic maple syrup because it is my Maple Syrup 
Week this week, and I will be happy to pass that along.
    But I do want to emphasize I think it is--you know, I think 
there are times when you let the industry mature, you let 
things happen on the outside, but it is the role of the USDA to 
support good markets for farmers and opportunities out there.
    And I am concerned about this budget overall and think that 
we are not adequately funding, so I hope we can work together 
in a bipartisan way on this subcommittee. I know we had a lot 
of support on both sides of the aisle to restore some of that 
funding.
    Thank you, Mr. Chair.
    Mr. Aderholt. Mr. Valadao.

                         POLITICAL APPOINTMENTS

    Mr. Valadao. Thank you, Chairman.
    Thank you, Mr. Secretary, for being here today. And it was 
a pleasure working with you over the last year, and I would 
especially like to thank you for making so many trips out to 
the central valley of California, especially out to the 
processing facilities in my district. It really does mean a lot 
to me and the people that I have the honor of representing.
    On pending appointments, Mr. Secretary, in January I 
submitted a letter of support for the appointment of Mr. Tom 
Barcellos for the USDA Farm Service Agency State Committee, and 
in March I submitted a letter of support for Mr. Les Wright for 
the position USDA's Plant--Animal and Plant Health Inspection 
Service, National Wildlife Services Advisory Committee. Can you 
please provide me with a quick status update on the 
appointments within the USDA and how--and that they--how have 
they been held up for so long?
    Secretary Perdue. I will have to check on those two 
specific individuals. We have mostly staffed up all the state 
committees. I am not familiar with the exact one, but we will 
get back to you on that. And the other one you mentioned on 
Wildlife Services, I will have to get back to you on that as 
well. I didn't bring that information with me at hand, but we 
will--we have--you know, as you well know, we take into 
consideration members of Congress overall and try to do that.
    That is a tough job, really, putting people together. So we 
rely on you people in--you members in the district to help us 
identify the people who you think would serve well. So I will 
get back the specific answers on those individuals.
    [The information follows:]

    On May 8, 2017, USDA's Animal and Plant Health Inspection 
Service (APHIS) requested nominations for membership on the 
National Wildlife Services Advisory Committee. Committee 
members advise USDA on activities, policies, program issues, 
and research needed to conduct operations for APHIS' Wildlife 
Services programs. Committee members are chosen to represent 
the diverse interests in the program and the multitude of 
industries to whom USDA serves. The White House Liaison's 
Office recently completed its vetting process of all of the 
nominees to ensure that no conflicts of interest exist that 
could potentially interfere with a nominee's ability to serve 
on the committee.
    Concurrently, APHIS has been completing the necessary steps 
to renew the National Wildlife Services Advisory Committee 
Charter, which expires July 2018. I anticipate reviewing both 
the new Charter, as well as the vetted list of nominees, before 
July and notifying the newly appointed advisory committee 
members at that time. Members will be appointed for a two-year 
term. APHIS expects the first meeting of the new committee to 
occur before the end of the calendar year.
    On January 4, 2018, I announced the appointment of two 
hundred twenty-seven Farm Service Agency (FSA) State Committee 
(STC) members to serve for the 2018 calendar year. Since that 
date, USDA staff has been vetting and finalizing candidates for 
the remaining additional 2018 FSA STC appointments. Mr. 
Barcellos is one of the STC appointees who is currently being 
finalized. While this process is almost complete, the official 
announcement will come after the final vetting and approval.

                    DAIRY MARGIN PROTECTION PROGRAM

    Mr. Valadao. I appreciate that. And then, Mr. Secretary, as 
you know, the Dairy Margin Protection Program allows all 
farmers, regardless of size, to pay reduced premiums on the 
first 5 million pounds of milk enrolled in the program. And it 
is important that this program remains available to all 
farmers, so as to not disadvantage any farmers based on their 
size.
    That being said, I know some large farmers are concerned 
that depending on their production history, they may actually 
be required to cover more milk at higher levels just to get the 
benefit of the first 5 million pounds. I think it is important 
that we ensure this program remains fair to producers of all 
sizes.
    Under the law, I think you should have some flexibility to 
allow farmers to select multiple margin levels for their 
production history. We need to make sure that larger producers 
have the same risk management options as others, so it is 
crucial to let them buy up to their first 5 million pounds 
without automatically having to buy up beyond that.
    I appreciate any comments you might have on this topic, and 
I guess an example would be a large enough farmer would have to 
purchase 7\1/2\ million or 8 million pounds just to purchase 
their first 25 percent, which is required, and they would have 
to pay that 2 to 3 million pounds at a higher price just to 
qualify, just to be able to play or be a part of the program.
    So if you have any comments on that.
    Secretary Perdue. I do. As you know, I had the opportunity 
to visit some of your progressive dairies in your district and 
in the valley there and was very impressed with them. That is 
an issue we probably need to discuss more thoroughly. Our legal 
advice is that we do not have the authority to do the multiple 
benefits in the Margin Protection Program to do that. I haven't 
had the opportunity to talk to our general counsel specifically 
about that issue, but we were informed and consulted that we 
could not authorize the Margin Protection Program under the--in 
the February 8 bill. That did not allow that to happen, but I 
will be happy to discuss that with you as well.

                      ALTERNATIVE PROTEIN PRODUCTS

    Mr. Valadao. I appreciate that. Mr. Secretary, I have heard 
a lot recently about advancements in development of alternative 
protein products, including meat grown in a lab. Traditionally, 
the Food Safety and Inspection Service is responsible for 
ensuring meat and poultry products are safe and labeled 
correctly. Has USDA given any thought on the regulation of 
these products?
    Secretary Perdue. Well, we have. Obviously, there are some 
gray lines between FDA and USDA on many things, but meat has 
been under the purview of USDA. As you well know, meat and 
poultry has been the sole purview of the USDA.
    We would expect any product that expects to be labeled as 
meat would come under that same inspection criteria there.
    Mr. Valadao. Well, and it is something that, obviously, as 
a dairy farmer with milk, and you are starting to see on a lot 
of different fronts where there are a lot of names being just 
thrown around. And so standards of identity is something I take 
pretty serious.
    It is clear that science-based regulation and accurate 
product labeling will be critical to ensure an even playing 
field and prevent consumer confusion as USDA examines this 
issue further. I would like to encourage you to consider 
asserting regulatory jurisdiction, given your expertise and 
unique perspective. I believe USDA's best position to lead on 
this important issue.
    So I have got a few more questions, but I know my time is 
up, so I will hang around for a little bit longer. Thank you, 
again.
    Mr. Aderholt. Mr. Pocan.

                    DAIRY MARGIN PROTECTION PROGRAM

    Mr. Pocan. Thank you, Mr. Chairman. I appreciate it.
    And welcome, Mr. Secretary. So I have a lot of dairy, corn, 
soy, alfalfa in my district, add cranberries and ginseng if you 
go statewide. I just want to put that out there.
    I would like to try to get to 5 areas. I know I won't, but 
we are going to try to get to dairy, RFS, rural broadband, 
SNAP, and cranberry research dollars. So if we can both keep it 
concise, it would be great on it.
    First of all, thank you for reopening the 2018 enrollment 
period and making it retroactive on the Dairy Margin Protection 
Program. Just wondering how the implementation of that is 
going. Are we getting it to all the field offices? Just a quick 
update.
    Secretary Perdue. Well, you know, the announcement has gone 
on. I think the signup ends relatively soon, and most farmers 
are pretty smart with their pencil. They can calculate back 
retroactively to January 1, so we expect a robust signup with 
the Margin Protection Program.

                        RENEWABLE FUEL STANDARDS

    Mr. Pocan. Great. Also, on RFS, I want to thank you for 
your recent statement supporting the RFS, for supporting year-
round sales of E15 and opposing a RIN cap. I am wondering what 
the timeline is for rulemaking on the Reid vapor pressure 
waiver.
    Secretary Perdue. Well, that would be--obviously, come from 
EPA and we have no timeline. I think the President has been 
very clear about his desire to expand that RVP waiver to 12 
months and allow E15 to be sold year-round, which we think 
would be very healthy for the ethanol corn grower and provide 
Americans more choice again with American-grown energy.

                            INTERNET SPEEDS

    Mr. Pocan. OK. You are helping me get through my 5. Rural 
broadband, we started a rural broadband caucus, so we have 3 
Democratic, 3 Republican co-chairs. In fact, everyone wanted to 
be a co-chair because it is a big issue.
    I live in one of those areas where I get 1 mbps, unless I 
have--I have a separate satellite in order to get something 
other than that. Again, there is some additional dollars in 
there, although in the infrastructure plan that, you know, the 
budget had, it didn't explicitly specify dollars for improving 
internet access. And I know that we are trying to work to get 
some dollars in there.
    One question I did have, though, is on the USDA--on the 
Community Connect Program that is run through them for 
agricultural funds, it still has the speed at a standard of 4 
mbps downstream and 1 mbps upstream. That is really antiquated. 
I would argue I think people say at minimum it is like 14.
    We actually had a proposal that made it through the Omnibus 
to see what it would take to bring everyone in the country up 
to 25 mbps as a minimum. Just wondering about revisiting those 
speeds within that.
    Secretary Perdue. You have educated me. I didn't realize we 
had those antiquated standards, obviously. I am using--I have 
used 10 mbps as a minimum. The FCC is talking about 25. I would 
love to get to 25, but 10 can do a lot of things, certainly 
more than 1\1/2\ or others, and some of us struggle with that 
out in some of our rural areas.

               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

    Mr. Pocan. Yeah. If we could revisit that, because people 
are tracking cows, everything now. I mean, it is just--it is 
used way beyond in just their basic general business 
operations.
    SNAP, you know, there I do have some concern with, you 
know, where we are at and the budget on that. My first term I 
ate on the budget of SNAP for a week. I was a hungry critter 
for that week. I bought a bag of oranges. That took a good $6-
plus out of my budget for the week. I had a lot of Ramen noodle 
stuff, my peanut butter. I ate every little bit, was hungry, 
pretty ornery. My office probably hopes I never do that 
challenge again.
    But it is of concern, and, you know, I know originally some 
of the comments and exchanges you had with Mr. McGovern seemed 
to be more open, but, you know, unfortunately, the budgets are 
coming down really hard on SNAP. Fifty percent of the kids in 
Madison, which is the biggest city in my district, are on free 
and reduced lunch; 70 percent down in Beloit, which is in Rock 
County, the county I share with Paul Ryan.
    I guess this is maybe more of a comment than a question, 
but, you know, really, you know, no one is getting rich on 
SNAP. Of all programs that keep kids out of poverty, this is 
one of them. You know, if maybe someday you want to join me on 
a challenge, even if we do it for a day, you can just see what 
it is like, I think it really would be helpful for us to try to 
figure out ways to keep the connection with those urban parts 
of my district and those really, really rural parts of the 
district. This has always been a key for us passing things, and 
I just hope we can keep that alive.
    Secretary Perdue. Well, I am up for a challenge, Mr. Pocan, 
if you want to go again on a SNAP budget. I need it. 
[Laughter.]

                           CRANBERRY RESEARCH

    Mr. Pocan. You could come and visit our farmer's market in 
Madison, which I would argue is probably one of the most unique 
in the country, and we could do all of that in one day. I would 
love to have you in the district, Mr. Secretary.
    Finally, cranberry research dollars. I know we are trying 
to see if we can get an additional $2\1/2\ million. I would 
really appreciate it if it might be something that we could be 
supportive of. It would be really great for my state.
    Secretary Perdue. OK. Thank you, sir.
    Mr. Pocan. Yep. Thank you.
    And I will yield back 15 seconds, Mr. Chairman.
    Mr. Aderholt. Mr. Palazzo.

                           CATFISH INSPECTION

    Mr. Palazzo. Well, thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for coming back this year. 
Enjoyed our conversation last year. I want to start off by 
saying thank you, you know, and I want to echo the Chairman's 
comments on cotton and dairy and how you committed to work with 
us and you have, as has the Administration. So thank you on 
that.
    Also, I would like to think if your staff properly prepared 
you, you probably already know the question I am going to ask 
you before I ask it, because it is similar to the one from last 
year. But I do want to revisit the USDA's Food Safety and 
Inspection Service Catfish Inspection Program. And there is 
pretty much two issues here.
    First, after our conversation from last year, you know, I 
was actually disappointed to see that same proposal to show up 
on page 48 again, wanting to remove the catfish inspection from 
the USDA, which is doing a phenomenal job on providing for our 
food safety and inspection, and moving it back to the FDA, 
which did a horrible job.
    And I think--but I won't dwell on that just yet. I will 
give you an opportunity to speak.
    But moving on to Vietnam and some facts, since 2016 the 
program has turned away hundreds of tons of imported catfish 
because they contain dangerous chemicals and drugs banned in 
the U.S. I mean, hundreds of tons that they kept from our 
dinner tables here in America.
    And thanks to the Food Safety and Inspection Service's good 
work, American consumers are--have confidence that they are 
consuming safe and quality food. And so the 2008 farm bill 
moved--you know, basically put the food safety inspection of 
catfish to the USDA. Again, in 2014, same bill. It has been 
done under a Democratic-controlled Congress and Presidents as 
well as Republican-controlled Congress and Presidents. And so I 
think you get the point.
    Now, 2 years later, you know, hundreds of millions of 
pounds of catfish rejections later, Vietnam has complained to 
the World Trade Organization that something Congress did in 
2008 by law almost 10 years ago is now unfair. And because FSIS 
is requiring Vietnam to have food safety systems at least 
equivalent to--not the same but equivalent to the U.S., they 
are saying that that is unfair.
    I don't think it is unfair. I think, you know, this 
argument between USDA and FDA is political. But I think--I know 
several of my colleagues on this subcommittee in the past have 
agreed that they think the catfish inspection programs should 
rightfully be in USDA where they are doing a phenomenal job, 
and where FDA has not been able to have the same successful 
record that you have had, and that food safety is important to 
the American people.
    So I will allow you the opportunity to comment. Do you 
think, you know, requiring other countries that import foods 
into America to have at least equivalent safety inspections, do 
you believe that to be fair?
    Secretary Perdue. Well, absolutely. The silliness of the 
Vietnam case is that it is the same standards that we hold our 
domestic producers to. And as you indicated, this has gone on 
for a while. So the very fact that they would allege that we 
are treating them unfairly, while we have our own domestic 
producers, both wild caught and domestic, for those same 
standards is--doesn't make any sense.
    I don't think the case will go anywhere at all, but it is 
important, obviously, you--you made a statement that I don't 
think anyone can disagree with that food safety is critically 
important. It is one of the most important things that we do, 
and we take that very seriously.
    I am not sure about the FDA. And there are several issues I 
think that we would like to address with the FDA over 
responsibilities going forward.
    Mr. Palazzo. I appreciate that. Again, you know, to echo, 
prior to the USDA taking over the inspections, I am assuming 
hundreds of tons of catfish were actually making it onto the 
American consumers' tables that contained dangerous chemicals 
that we do not want, and we would not accept. And USDA, once 
they took on the responsibility, I guess they took it seriously 
and they have done a fantastic job. And I think, you know, the 
American people would like to continue to see you all do that.
    And, second, so the Omnibus Bill, the fiscal year 2018 
Omnibus Bill provide ample funding for the Food Safety and 
Inspection Service. Are you committed to ensuring that that 
money makes its way to the Food Safety and Inspection Service? 
Do you see any reason why it wouldn't comply with the law?
    Secretary Perdue. Absolutely, sir. I think, again, we view 
food safety as one of those zero tolerance issues. Obviously, 
USDA has a lot of responsibility for making sure that the 
public not only gets safe food but perceives the food that they 
are saying is--they are operating under safe conditions, both 
those that we are importing and that is locally domestically 
produced.
    Mr. Palazzo. Mr. Secretary, thank you, and we appreciate 
what USDA does for America.
    Mr. Chairman, I yield back.
    Mr. Aderholt. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. How is Under 
Secretary Bill Northey doing?
    Secretary Perdue. We got him here. He is making up for lost 
time. He is doing a great job.

                       TRANS-PACIFIC PARTNERSHIP

    Mr. Young. I know he is excited to be fully engaged. Trans-
Pacific Partnership, where are we with that? I mean, I have 
heard the President tell Lawrence Kudlow, the economic advisor, 
and USTR advisor--representative Lighthizer to go, let's do our 
best to get back into TPP. Then recently I hear a no. Do you 
know where we are? And are you advocating that we get back into 
TPP, at least in the agriculture kind of title?
    Secretary Perdue. I was in a meeting the other day with 
farm state members of Congress as well as farm state governors 
where the President directly addressed his NEC Chairman, Larry 
Kudlow, as well as Ambassador Lighthizer was in there, to deal 
with and to approach the TPP again.
    I had reminded the President what he likes to talk about is 
you get a better deal when you withdraw. I said, ``Mr. 
President, we have already withdrawn from TPP. Let's go get a 
better deal.'' So I am encouraged by that. I don't know. He is 
meeting with Mr. Abe in Mar-a-Lago, and hopefully that will be 
part of the discussion there. But I don't have any further 
information about that.
    As you know, Ambassador Lighthizer is charged legally with 
negotiating those deals. While we would welcome that 
arrangement, I think, again, with joining those other 11 
countries, it would be a great unification against China in 
world trade.
    Mr. Young. And bilateral agreements as well, the President 
has a preference. He has said he prefers bilateral agreements. 
Are you privy to any discussions where we are approaching other 
countries on a bilateral basis to negotiate any trade deals?
    Secretary Perdue. Well, I know from a sales perspective we 
are approaching many countries. Under Secretary Ted McKinney, 
Trade and Foreign Agricultural Affairs, is well on his way to 
his million mile mark, traveling the world, knocking on doors. 
We were fortunate--just the fruit of the Argentina pork 
recently, and KORUS, but he has been to India, Japan, and 
Southeast Asia, India a couple of times, and it is a tough 
market but we will continue.
    We bring out those sales leads and that interest back to 
the USTR, and they negotiate the deals.

                        RENEWABLE FUEL STANDARDS

    Mr. Young. Thank you for what you did and your advocacy for 
renewable fuel standard and biofuels and ethanol, and whatever 
you may have done to help convince the President that E15 year-
round was a good thing. And I believe it is good.
    And as well, what the EPA is doing with their waiver 
process, will you urge Administrator Pruitt and the President 
to stop granting those waivers until we get a full picture 
about what the heck is going on? Because when you hear about 
waivers going to entities, companies who--and that is supposed 
to be if you have a hardship, right?
    Secretary Perdue. That is right.
    Mr. Young. But when Andover has a $1.5 billion profit, that 
doesn't sound like a hardship for me. So help us draw a clear 
picture about what the heck is going on, and what we can do to 
make sure it is not abused.
    Secretary Perdue. Most of our farmers would love to have a 
hardship of that magnitude.
    Mr. Young. Amen. You have got that right.
    Secretary Perdue. You know, certainly, we are concerned 
about the waivers. That is just directly demand destruction, 
and our concern is we have issued enough waivers this year that 
would be beyond the blend wall, and we think that is adequate 
compensation to merchant refiners who have been complaining 
about RIN prices. We are already down there by virtue of other 
waivers.
    Mr. Young. Well, this is so important because, as you know, 
agriculture income has been down 4 years in a row. I think its 
lowest since 2006. And any kind of retaliation that we may have 
through trade right now with what is going on, this could be 
almost even more devastating with what could happen with RFS.
    Secretary Perdue. Well, you take the trade disruption 
conversations we are having with China, on NAFTA, on the bubble 
there, as well as RFS, there is a lot of stress out there and a 
lot of duress in the ag community. And it gets cumulative. It 
is just like life. Different situations happen in this life. 
The stress is cumulative, and there is a lot of anxiety in 
farming.
    RFS could--solution could help, NAFTA, KORUS, and certainly 
TPP could go a long way to reduce that anxiety meter.
    Mr. Young. Thank you for being here. I will have some more 
questions in the next round.
    Secretary Perdue. Thank you.

                    WATER AND WASTE DISPOSAL PROGRAM

    Mr. Aderholt. Thank you. Let me turn to infrastructure just 
a minute. Infrastructure is critical to agriculture industry in 
rural America, with modern reliable infrastructure services as 
the pillar of our strong economy. And, of course you realize 
that as much as anybody.
    What is likely now known by many as the significant role 
USDA has in the infrastructure through its large utility 
portfolio? USDA has a well-performing utility portfolio of over 
$55 billion that primarily consists of investments in electric, 
water, and broadband utilities.
    I would like to take a moment just to discuss investments 
in rural infrastructure for water, wastewater, and solid waste 
management. These basic services are critical, and members of 
this subcommittee have seen firsthand the importance of safe 
and reliable water systems.
    While we are pleased to see the inclusion of the $1.2 
billion direct loan program in the budget request this year, 
the budget disappointingly, once again, does not request any 
funding for grants despite the known need and significant 
backlog.
    Oftentimes a grant component may be used with a loan to 
make a project financially viable and keep the rates for payers 
affordable. Why did the Department decide not to propose any 
sort of other water and wastewater resources outside of the 
direct loan program despite the need that is clearly out there?
    Secretary Perdue. Our understanding, Mr. Chairman, is that 
EPA or the OMB view this as duplicative with Corps of Engineer 
projects, as well as EPA. We had some concern about that as 
well because we know that the combination of grant and loan 
programs--and you are right, we are pretty proud of the 
portfolio that USDA has managed, oftentimes as a negative 
subsidy here that returns money to the Treasury.
    So we believe that both of them can be very helpful in an 
infrastructure program.
    Mr. Aderholt. Yes. And certainly when you have duplicate 
programs I think any of us need--want to be aware of when those 
are the case. But clearly there is a backlog out there, and 
there is a real need.
    The budget also proposes to increase the population 
eligibility for water and water--and waste programs from 10,000 
to 20,000.
    Why does the Department seek to make this change, and could 
it adversely impact, you know, what--many of us represent 
smaller communities that--and the impact it would have on them. 
So let me just ask your thoughts on that.
    Secretary Perdue. We would welcome this subcommittee and 
Congress as a whole to look for a common definition of 
``rural.'' There are many there. What happens oftentimes, if 
you have a larger city, say 50,000 or 70,000, in a county, that 
whole county is kicked out of that project, where you have got 
a lot of other rural areas in that county.
    So this is one item I would request that you all look at 
from a holistic perspective of getting a common definition 
across U.S. Government programs for a rural definition that 
would help.

                NATIONAL BIO- AND AGRO-DEFENSE FACILITY

    Mr. Aderholt. Okay. All right. We can follow up with you on 
that. Let me switch right quickly to the National Bio and Agro-
Defense Facility. One of the significant requests in the fiscal 
year 2019 budget is to begin this transition of management 
operations of the National Bio and Agro-Defense Facility, which 
is referred to NBAF, from Homeland Security to USDA.
    Of course, the facility will not be operational for a few 
more years, but the budget costs of $42 million this year for 
program transition and new equipment related to the transfer 
from Department of Homeland Security to the Department of 
Agriculture. NBAF is essentially replacing the existing 
facility on Plum Island and will undoubtedly create a state-of-
the-art facility that performs critical research on foreign, 
emerging, and animal diseases that propose threats to animal 
agriculture and public health.
    Can you speak to the reasoning behind the Department 
wanting to make this transition, management and operations, 
from Homeland Security is needed, and explain how you see the 
facility operating under the Department of Agriculture?
    Secretary Perdue. Well, we are of the opinion that this is 
one of the core competencies of USDA and the Agricultural 
Research Service. We have been responsible for managing that 
Plum Island facility. While there is some bioterrorism that 
affects--Department of Homeland Security agreed and actually 
asked us to look at managing the effort at Kansas State at the 
NBAF facility there.
    We agreed that it would be in the best interest overall to 
have USDA involved in those biosecurity issues that affect many 
things--foot and mouth and other kind of terroristic type of 
issues that would go forward if something happened, obviously, 
in a bad way. DHS would be responsible for the security and 
concerns going forward. But from the research perspective, 
vaccines and other types of things, we think it is more in the 
core competency of USDA and we welcome the acceptance of that 
responsibility.
    Certainly, we have got a concern for the future funding, to 
make sure that we don't have to take that out of the ongoing 
USDA budget.
    Mr. Aderholt. Thank you.
    Mr. Bishop.

       CIVIL RIGHTS REORGANIZATION/TREE ASSISTANCE PROGRAM-PECANS

    Mr. Bishop. Thank you very much, Mr. Chairman.
    I am going to ask 2 questions, try to be brief, so we can 
probably wrap it up. It is regarding--first is regarding civil 
rights. You recently proposed a reorganization of the civil 
rights functions in the Department. As you know, I asked your 
staff some questions about the proposal, and I am awaiting 
responses. As I understand it, the proposal would centralize 
the agency's civil rights responsibilities at the mission area 
level, and those persons would, in turn, work with the 
Assistant Secretary for Civil Rights.
    You have shared that there has been a lack of uniformity in 
how civil rights issues have been handled at USDA, and you are 
seeking to address this through the reorganization. Would you 
discuss that?
    And the second is more parochial. It has to do with pecans, 
the disaster assistance that was in the Omnibus. As you know, 
the storms that Georgia experienced in 2017 brought a lot of 
damage to the pecan crop, and it became clear that changes were 
needed to ensure that the farmers could be fairly compensated 
for their losses and be able to continue in business.
    To that end, we worked with Chairman Aderholt, your staff, 
to bring $15 million worth of aid in the recently passed 
Omnibus to pecan farmers in Georgia and others who suffered 
losses. Where are you in the implementation of that provision, 
and how long will it take to get the money out the door?
    Secretary Perdue. Similar to what--on the second question 
first, Mr. Bishop, similar to what we talked about with citrus, 
we hope to have those programs out next week. Citrus, we are 
closer actually on pecans than we had been on citrus because of 
the concentration of the citrus industry. They gave us some 
concerns over some of the potential payouts that may be there, 
but hopefully we will do that.
    Again, we think the software will be ready by the end of 
June, first of July, and we would also probably have 50 percent 
advance over those applications as well.
    Regarding the reorganization of civil rights, we did that 
from a business enterprise standpoint overall, like we had 
every mission--every agency was operating both from a CIO or 
chief information officer, human resources, procurement, and 
others, and there was a lack of consistency across a broad 
array, not only civil rights but these others, human resources, 
procurement, those kind of things.
    From a business reorganization standpoint, we wanted them 
to specialize in the mission areas. We have got 1 chief CIO 
with 7 assistants there per mission area, rather than having 
23. We had 39 data centers, some of them in some very unsafe 
places as well that we have consolidated. We are getting back--
going back. We have reduced that already in half, and we are 
moving forward.
    So the civil rights was not a way to diminish the impact, 
but to focus the impact over consistent answers and making sure 
people in every mission area felt like their answer was the 
same and consistent in these very important questions.

                            TELEWORK PROGRAM

    Mr. Bishop. I do have a little time left. Talk about----
    Secretary Perdue. I could have talked longer, I guess. 
[Laughter.]
    Mr. Bishop [continuing]. The telework program. That has 
gotten a little bit of press, and I think USDA modified its 
telework program. And it had been written up in Forbes magazine 
as being a stellar example of how it worked, but then of course 
some new regulations I think were implemented somewhere around 
March or February that limited the amount of telework. Can you 
discuss that?
    Secretary Perdue. Certainly. What we were finding in some 
of the processes there, that things were not moving nearly as 
fast. And as we began exploring that, some of the excuses again 
was so-and-so is teleworking. And there had been waivers where 
there were some people teleworking a majority of the time.
    One kind of funny anecdote I will relate, in the barber 
shop where a lot of things get talked about, one guy was 
complaining about our new telework policy. And one of my aides 
was down there listening and he said, ``Well, tell me about 
that.'' He said, ``What is the problem?'' And he said, ``Well, 
I am only going to telework 2 days out of a pay period.'' He 
said, ``Well, what is your job?'' He said, ``Maintenance.'' And 
that is kind of a high-powered example of what was happening 
there. People--it became an entitlement that people felt like 
they could just telework from any job, and there were some jobs 
that didn't fit teleworking.
    Mr. Bishop. Thank you, Mr. Secretary. Thank you for your 
service. We look forward to working with you and try to--let's 
carry that mission out at USDA, so that we can do the best we 
can for our farmers, ranchers, and our consumers.
    Secretary Perdue. Thank you, friend. You have done that for 
a long time. We look forward to working with you.
    Mr. Bishop. Yes, sir.
    Mr. Aderholt. Dr. Harris.

               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

    Mr. Harris. Thank you, Mr. Chairman.
    I apologize, I stepped out after your introductory 
comments, but the White House is holding a multi-agency 
briefing on opioid crisis, and your agency was represented as 
well. And, as you know, that is a particularly important 
problem in rural areas, and I am glad to hear that your 
Department is helping out with America on that as well.
    I am going to ask--well, first, I want to thank the 
Department for, you know, the EQIP Program, the Specialty Crop 
Block Grant Program, important in the State of Maryland. With 
regards to the Farmer's Market Nutrition Program, I hope we are 
able to keep some funding for that because that is also 
important in Maryland.
    But I want to just talk a little bit about the SNAP program 
because I am puzzled, and I will ask for your answer on that as 
well, as to why, you know, before 2000 or in 2000, 
approximately 17-, 18 million people on SNAP, unemployment rate 
over 4\1/2\ percent, and, of course, as you know, over time 
unemployment rate went up, but now it is down to 4 percent, but 
we have 2\1/2\ times as many people receiving SNAP benefits.
    So, and I guess at one point I would like to know if you 
can try to explain what this disconnect is. I mean, look, we 
want to help people when they are in need, but we have returned 
to full employment, or what we look at full employment. You 
have 42 million people on the SNAP program.
    The other thing I want to comment about is some of what we 
heard about the SNAP Food Box proposal, because I like that 
proposal. I mean, you know, the farmers in my district, they 
are happy that finally we are going to have a program in place 
that says that when their tax dollars go to pay for 
supplemental nutrition, which they all want it to go to, that 
actually we are going to guarantee that a part of that actually 
is used on American food products, on U.S. farmers' products.
    And my understanding--and I guess you would select 
nutritious products I guess, because, of course, when you get 
the EBT card now, you don't have to buy nutritious products. 
You can buy anything off--almost anything off a food shelf in 
the supermarket. So I think that is great. It sounds like we 
would be getting more nutritious food for less dollars, which I 
think is exactly what the American taxpayer probably thinks 
that program ought to do is provide highly nutritious food, be 
more efficient doing it, and help our farmer.
    You know, the food network delivery--or the food delivery 
network questions come up, but my observation is the trend in 
the grocery industry nationwide is to establish food delivery 
networks. I mean, and it sounds like you are actually ahead of 
the curve saying, yeah, you know, we can actually--and I 
imagine you could participate in many areas in those kind of 
food delivery networks that are set up, which actually would 
make it quite cost effective.
    I mean, if your local grocery store can find it efficient 
to deliver food, I can't imagine why we couldn't find it to be 
efficient to deliver food that way as well.
    And the other thing was the remaining--you know, that 
question that says, well, you know, they are obviously not 
vegetables or fresh fruit because these are shelf-life foods, 
but my understanding, Mr. Secretary, the person still would--
the recipient still would have about half their benefits that 
they could go out and buy all fresh fruit and vegetables with. 
Is that my understanding?
    Secretary Perdue. That is correct.
    Mr. Harris. So we are not telling them you can't have fresh 
fruit and vegetables. It is----
    Secretary Perdue. No. We were anticipating 50 percent of 
the Harvest Box being there, but 50 percent on EBT card. And, 
frankly, we have also had considerations of how we could 
include fresh fruits and vegetables in the Harvest Boxes as 
well, packed on a real-time basis there. So that is our 
expectation.
    Mr. Harris. I mean, certainly, if you use the existing food 
delivery networks, that should be possible. I mean, to use one 
of--I mean, Giant Foods in my area, they deliver fresh fruit 
and vegetables in those delivery boxes.
    But if you could just shed some light. Why is it, you 
think, that we have so many more people dependent upon the SNAP 
program than we did 15 years ago? And literally 2\1/2\ times as 
much, even though our economy is booming and unemployment is 
down below levels at that time.
    Secretary Perdue. Well, I wish demographically I could--I 
could explain that. I think that has been some of the 
consternation regarding looking at changes in the program. As 
we know, Americans are very generous and very--some of the most 
compassionate people in the world, and we always want to 
provide. I mean, food is a necessity, and we want to provide 
food for particularly hungry children and senior adults that 
need that food.
    But you are absolutely correct. The unemployment numbers, 
we saw them climb during the Great Recession, and that was 
understandable as people lost their jobs. But the commensurate 
decline in applications, while it has gone down some, it has 
not tracked the unemployment there.
    So I think our fear is that some people maybe have found it 
more advantageous to continue government aid than to go look, 
but that is why I applaud what I think Chairman Conaway is 
trying to do with the educational and training money. If your 
members will look at the fact, we are not trying to take money 
away in the farm bill. We are trying to help people get a job 
that will be ultimately better for them and their families than 
any kind of government dependency.
    Mr. Harris. Well, I agree with you, Mr. Secretary. Thank 
you very much. And, again, I apologize for having to step out.
    I yield back, Mr. Chairman.
    Mr. Aderholt. Thank you, Dr. Harris.
    Mr. Young.

                            BIOTECH ANIMALS

    Mr. Young. Secretary Perdue, I have a question for you 
regarding biotech animals. As you know, FDA has oversight over 
biotech animals, and recently claiming jurisdiction over gene-
edited animals as well. So the FDA regulates these under its 
new animal drug authority, which means these animals must go 
through years of testing as drugs, and producers and retailers 
may even be required to register as drug producers to raise or 
sell these animals.
    It sounds onerous, these requirements, and preventing some 
valuable products from reaching farmers. I love bacon, but I 
don't know that I am addicted to it or it is a drug. But what 
does this all mean in the end? And I know you have signed an 
MOU with the FDA on this, to discuss biotech regulations. And 
so has this been a topic of discussion? Where are you on these 
discussions, and what can you do to help take this--to set this 
back or stop this? Because it sounds bizarre to me.
    Secretary Perdue. Well, I have been involved with Dr. 
Gottlieb, the Commissioner of FDA, and I am concerned about it, 
likewise, as you are. I think it will stifle innovation and 
creativity, particularly in the non-transgenic gene, which is 
actually just really rapid natural breeding techniques that we 
have used for years.
    We have the ability and we have recently ruled on the fact 
that we are going to allow that in plants. And I think, again, 
it is just as we do herd selections in animals there, the non-
transgenic improvements in biotech would allow for a rapid 
progression of that, of developing more productive animals that 
give more milk and grow faster, and do that without the need 
for drugs or hormones or anything like that, which to me looks 
like it would be a good idea.
    So I think Dr. Gottlieb and I have disagreed about FDA's 
position on that, and I will continue to impress upon him the 
need for us to look differently at those items.

                           BROADBAND PROGRAM

    Mr. Young. Thank you for impressing upon that. And I 
believe there had been some questions already raised regarding 
the Rural Utilities Service and broadband. And to the extent 
that we ensure that any new deployment goes to underserved or 
unserved areas is very, very important.
    I think part of it is we have got an antiquated mapping 
system where we are not sure where everything may be. And just 
recently we--recently, a bill was passed here in Congress and 
signed into law that will help with that mapping, and so we 
will know where the needs are. But to the extent that you are 
working with FCC on that, I hope that goes well because we need 
it.
    When we talk about infrastructure, you know, we can have 
just a stronger rural economy in rural communities if we can 
have the strong roads and bridges, and we can have the ability 
to communicate.
    Secretary Perdue. No question about it. We are working with 
FCC, as well as Commerce, on this effort. But we are also 
working with local communities who know the needs there. And 
you are absolutely right. I think the data map has been deemed 
inaccurate because it is inaccurate. We have relied on major 
carriers to tell us what our coverage is. And I have taken some 
of these in our home state of Georgia and gone through and you 
can't even get a cell signal in some of those areas where you 
say you can get high-speed broadband. It is just not there.
    So we are going to be focused. We are going to plan to use 
that $600 million very strategically and demonstrate to you all 
with the right amount of grants, loans, and other programs, and 
working with private investors, and we hope to do you proud in 
that regard.
    Mr. Young. I would just ask you to remember as well, as we 
are more mobile people, we depend on those cell towers as well 
for our mobile applications as we are running around in our 
busy lives, and how that can help with precision agriculture as 
well, aside from the need to get the wiring and the broadband 
in the pipeline to our homes and small businesses and larger.
    Thank you. I yield back.
    Mr. Aderholt. Thank you, Mr. Young.
    Well, Mr. Secretary, thank you for being here today. Also, 
thank you, Dr. Meyer, and Mrs. Diem-Linh Jones, for being here. 
We appreciate your service, again, to USDA. And I think we have 
had a successful hearing here this afternoon.
    And we look forward to working with you as we continue to 
look at the fiscal year 2019 budget, and we look forward to 
working together on a lot of projects to help rural America and 
help agriculture overall in this country.
    So thank you, and the hearing is adjourned.
    
    
    
 
    
    
</pre></body></html>
